<html>
<title> - KEEPING YOUTH SAFE WHILE IN CUSTODY: SEXUAL ASSAULT IN ADULT AND JUVENILE FACILITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
   KEEPING YOUTH SAFE WHILE IN CUSTODY: SEXUAL ASSAULT IN ADULT AND 
                          JUVENILE FACILITIES

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2010

                               __________

                           Serial No. 111-100

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
55-066                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
LUIS V. GUTIERREZ, Illinois          TOM ROONEY, Florida
TAMMY BALDWIN, Wisconsin             GREGG HARPER, Mississippi
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida
MIKE QUIGLEY, Illinois

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel



                            C O N T E N T S

                              ----------                              

                           FEBRUARY 23, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and acting Ranking Member, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

Ms. Brenda V. Smith, Professor, Washington College of Law, 
  American University, Washington, DC
  Oral Testimony.................................................    11
  Prepared Statement.............................................    14
Mr. Troy Erik Isaac, President, Hands On Advocacy Group, North 
  Hollywood, CA
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28
Mr. Bernard Warner, Chief Deputy Secretary for Juvenile Justice, 
  Department of Corrections and Rehabilitation, Division of 
  Juvenile Justice, Sacramento, CA
  Oral Testimony.................................................    32
  Prepared Statement.............................................    34
Mr. Gabriel A. Morgan, Sheriff, Newport News, VA
  Oral Testimony.................................................    37
  Prepared Statement.............................................    39
Ms. Grace Bauer, Campaign for Youth Violence, Washington, DC
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     5

                                APPENDIX

Material Submitted for the Hearing Record........................    61


   KEEPING YOUTH SAFE WHILE IN CUSTODY: SEXUAL ASSAULT IN ADULT AND 
                          JUVENILE FACILITIES

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2010

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 4:02 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Jackson Lee, 
Gohmert, and Goodlatte.
    Staff Present: (Majority) Bobby Vassar, Subcommittee Chief 
Counsel; Jesselyn McCurdy, Counsel; Liliana Coronado, Fellow, 
Federal Public Defender Office Detailee; Veronica Eligan, 
Professional Staff Member; (Minority) Caroline Lynch, Counsel; 
and Kimani Little, Counsel.
    Mr. Scott. Good afternoon. I would like to welcome you 
today to the Crime Subcommittee hearing on ``Keeping Youth Safe 
While in Custody: Sexual Assault in Juvenile and Adult 
Facilities.''
    Traditionally, the juvenile justice system was designed to 
provide a therapeutic and rehabilitative environment for 
youthful offenders. Most juvenile justice facilities focus on 
rehabilitating youth so that they can return to their 
communities and lead productive lives. A young person may get 
involved in the juvenile justice system once or twice and then 
never return. But if a young person is sexually abused while in 
custody, he or she will suffer lifelong trauma from that abuse, 
which often results in mental illness, substance abuse, and a 
higher likelihood of involvement in the criminal justice and 
juvenile justice systems.
    Every day there are approximately 93,000 youth confined in 
juvenile detention facilities in the United States. The 
government has an obligation to prevent any abuse of young 
people who come into its care and certainly to prevent sexual 
abuse. Preventing, detecting, and responding to sexual abuse of 
institutionalized youth demands age-appropriate interventions 
to assure that they are not sentenced to the lifelong 
consequences of that violence.
    Currently, there is no comprehensive research on the 
characteristics of youth who are at greatest risk of being 
victims of sexual assault while in custody. However, we do know 
that young people who have a history of abuse and are small in 
size, inexperienced with the justice system, and suffer from 
mental or physical disabilities are frequently more vulnerable 
to sexual assaults.
    Indeed, some studies suggest that youth with a history of 
abuse and neglect may be extremely susceptible to subsequent 
abuse. Youth with history of childhood abuse and neglect often 
feel helpless against adults, particularly in an environment 
such as a juvenile detention center.
    Also, housing youth who are inexperienced with older and 
more experienced juveniles can create a dangerous environment 
in detention centers. Rates of sexual abuse appear to be much 
higher for combined youth than they are for adult prisoners. 
According to a 2006 BJS report, young people in juvenile 
facilities are five times more likely to be sexually assaulted 
than adults in jails and prisons. Juveniles are more frequently 
victimized because they are poorly equipped to respond to 
sexual advances by older youth or adults.
    In 2004, the U.S. Department of Justice began investigating 
conditions in a juvenile correctional facility in Plainfield, 
Indiana, based on reports of widespread physical and sexual 
violence. Investigators were taken aback by the age and size 
difference between many of the youth being sexually assaulted. 
Youth as old as 18 were assaulting or coercing children as 
young as 12. Some of these children weighed as little as 70 
pounds, and some of the youth who were perpetrators of the 
abuse weighed as much as 100 pounds more than their victims.
    Adult jails and prisons are especially difficult places for 
juveniles to survive safely, because many adult facilities fail 
to provide youth with basic services, such as family 
counseling, career training, and educational programming. While 
only 20 percent of youth in juvenile facilities are confined 
for violent offenses, nearly 50 percent of adult prisoners are 
violent offenders who are incarcerated for longer periods of 
time. Research consistently shows that younger prisoners who 
lack the experience and knowledge to deal with the volatile 
environment are at greater risk of being sexually abused while 
housed in prisons and jail.
    In 2003, the Prison Rape Elimination Act was enacted, and 
it is one of the few Federal laws to address sexual violence in 
correctional and detention settings. This legislation was a 
bipartisan effort led by Senators Ted Kennedy in the Senate and 
Jeff Sessions in the Senate and Representatives Frank Wolf and 
myself in the House. As a result of PREA, the Bureau of Justice 
Statistics is now responsible for collecting data about the 
prevalence of sexual violence in adult correctional and 
juvenile detention facilities.
    Last month, BJS released the first report based on a 
national survey of sex abuse in juvenile residential detention 
facilities. The report found that 12 percent of youths surveyed 
in State juvenile justice facilities reported sexual 
victimization by another youth or faculty staff over the past 
year. Approximately 10 percent of the youth surveyed reported 
incidents staff, and 2 percent reported incidents involving 
another resident. Over 90 percent of the youth in the surveyed 
facilities were male, and approximately 95 percent of all youth 
reporting staff sexual misconduct said that they had been 
victimized by a female staff person.
    The survey identified 13 facilities that had a high rate of 
sexual victimization, including, unfortunately, two facilities 
in Virginia. And the survey also identified 11 facilities that 
had a low rate of victimization. The report concluded that 
smaller facilities and those that held youth for less than 5 
months had the lowest rates of abuse.
    This most recent report highlights how important it is for 
the standards that were proposed by the PREA Commission in June 
2009 be adopted as soon as possible. Presently, the Department 
of Justice is in the process of reviewing the standards, and we 
hope the DOJ will make it a priority to adopt and implement the 
commission's recommendations to protect our young people from 
being victims of sexual abuse.
    We have several witnesses who will testify during today's 
hearing and help us find solutions to the problem of young 
people being sexually assaulted while in custody.
    And now it is my pleasure to recognize the acting Ranking 
Member of the Subcommittee and my colleague from Virginia, Mr. 
Goodlatte.
    Mr. Goodlatte. Well, thank you, Mr. Chairman.
    This hearing is the most recent installment in a series of 
hearings that this Subcommittee has held on issues within the 
juvenile justice system. Today's hearing focuses on sexual 
assaults against juveniles who are incarcerated in juvenile and 
adult correctional facilities.
    The majority called this hearing in response to a report on 
the subject that was recently released by the Bureau of Justice 
Statistics, or BJS, at the Department of Justice. The 
Department of Justice was required to publish the report by the 
Prison Rape Elimination Act of 2003. The act was passed for the 
purpose of developing national standards to prevent and detect 
incidents of sexual violence in correctional facilities and to 
make facilities more accountable for incidents of sexual 
assault in prison. The act was cosponsored by the gentleman 
from Virginia and Chairman of this Subcommittee, Mr. Scott.
    The findings within the report are based on surveys of 
juvenile inmates from 195 facilities in all 50 States. The most 
eye-popping statistic is that 12 percent of incarcerated 
juveniles, or more than 3,200 young people, reported being 
raped or sexually abused in the past year by fellow inmates or 
prison staff. About 2.6 percent reported an incident involving 
another youth and the use of force, and 10.3 percent reported 
an incident involving facility staff.
    Of the youth who reported an incident involving facility 
staff, about 4.3 percent of youth said they had sex or other 
sexual contact with facility staff as a result of force. The 
remaining 6.4 percent of youth reported sexual contact with 
staff without coercion.
    In addition, 13 detention centers around the country were 
cited for having a high rate of sexual misconduct, where at 
least 20 percent of juveniles incarcerated there said they were 
assaulted.
    This report is noteworthy, as it provides an authoritative 
and detailed snapshot of the problem of sexual abuse in State 
juvenile facilities. Of course, the administering of justice to 
juvenile offenders is largely the domain of the States, as 
there is no Federal juvenile justice system.
    As officials have learned more about this problem, a number 
of States have implemented measures to attempt to reduce of 
instances of youth-on-youth and staff-on-youth sexual 
victimization. Mr. Gohmert, the Ranking Member's home State of 
Texas instituted a number of reforms. 13,500 cameras and video 
recording technology have been put in place, allowing the 
agency and Office of Inspector General to examine the times and 
locations where incidents are alleged to occur. Further, 
corrections staff have received training to better identify 
behaviors indicative of sexual misconduct. Most importantly, 
the State has also adopted a zero-tolerance rule for sexual 
victimization.
    The Tennessee legislature is considering proposals to use 
outside specialists to interview juveniles about sexual abuse 
claims and to collect information for prosecution. In response 
to reports of sex abuse by staffers in juvenile facilities, at 
least one facility has installed cameras in all living units in 
the last 6 months to ensure children are safe.
    States like my home State of Virginia and Louisiana are 
also considering legislative and executive solutions to this 
problem. I applaud the effort of these States to address this 
issue. I expect that other States will look to these approaches 
as they determine what measures to adopt to combat sexual 
assault in correctional facilities.
    In conclusion, I would like to welcome the witnesses to 
today's hearing, and I look forward to their testimony.
    And I yield back my time. Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    The gentleman from Michigan, the Chairman of the full 
Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Scott. And I am happy to 
see your colleague from Virginia with you as the temporary 
Ranking Member.
    First of all, I want to congratulate you on your courage to 
bring forward for testimony the ugliest part of the 
incarceration system in America. What is going on is 
outrageous. And it is to your credit and the Committee's that 
you have brought this matter to light. There are no holds 
barred. We are going to change this not just at the Federal 
level, but we can be influential at the State level.
    I am proud of a witness list that includes Troy Erik Isaac, 
who has a story to tell since he was 12 years old that is 
unbelievable, and Mrs. Grace Bauer, who is organizing our 
citizens throughout the country to do something about this. I 
am so glad both of them are witnesses here.
    Now, the easiest thing to do is to get juveniles out from 
under the Prison Litigation Act, which, since 1996, has 
prevented us from getting to deal with this problem rather than 
helping us with it. And so I look forward to working with you 
and everyone on your Committee to that end.
    I will ask unanimous consent to put my statement in the 
record and yield back.
    [The prepared statement of Mr. Conyers follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. Thank you.
    And I will ask our witnesses to come forward as they are 
being introduced.
    Our first witness is Professor Brenda V. Smith, professor 
at American University's Washington College of Law, where she 
teaches community and economic development law, legal ethics, 
and women in criminal law. She has served as a commissioner on 
the National Prison Rape Elimination Act Commission and is the 
project director and principal investigator for the Department 
of Justice's National Institute of Corrections Cooperative 
Agreement on Addressing Staff Sexual Misconduct with Offenders. 
She earned her Bachelor of Arts degree from Spelman College, 
her Juris Doctorate from Georgetown University Law Center.
    Our second witness is Troy Erik Isaac. He was 12 years old 
when he was first sent to juvenile hall in California. As a 
young slender child, the larger boys immediately began to 
harass him. He was raped repeatedly and received no help from 
the staff at the facility. The abuse sent Troy into a cycle of 
imprisonment that lasted 22 years, accompanied by many more 
rapes and assaults. He left prison 2 years ago, vowing never to 
return. And he has cofounded a nonprofit organization in Los 
Angeles that conducts peer counseling and advocacy.
    The third witness would be Mr. Bernard Warner, who is the 
chief deputy secretary for California Department of Corrections 
and Rehabilitation, Division of Juvenile Justice. He has 27 
years of diverse nationwide experience with both adult and 
juvenile corrections. He has served in leadership positions in 
juvenile justice systems in Florida, Arizona, and Washington 
State. And he has developed a youth-centered vision for reform 
of the Department of Juvenile Justice. He received his Bachelor 
of Science degree with honors from Southern Illinois 
University.
    Our next witness will be Sheriff Gabriel Morgan of my 
hometown, Newport News, Virginia. He is responsible for the 
daily custody and care of more than 620 prisoners. Prior to 
being elected sheriff, he served as the special agent in charge 
of the Virginia Department of Motor Vehicles Investigative 
Services. He served his country with over 21 years with the 
U.S. Army. He is a graduate of the University of the State of 
New York at Albany and the Army's Command and General Staff 
College. And I certainly want to welcome my hometown sheriff 
with us today.
    The final witness will be Grace Bauer. She is leading a 
national caucus of parents who have children involved in the 
juvenile justice system. Several of the mothers she is working 
with had sons who committed suicide while in adult facilities. 
Since joining the Campaign for Youth Justice in 2008, she has 
worked to unite parents and allies with children involved in 
the adult criminal justice system.
    Now, each of our witnesses' written statements will be 
entered into the record in its entirety, and I ask each witness 
to summarize your testimony in 5 minutes or less. And to help 
you with that time, there is a timing device in front of you 
that will begin green, will switch to yellow with 1 minute 
left, and when it turns red your 5 minutes have expired.
    And we will begin with Professor Smith.

TESTIMONY OF BRENDA V. SMITH, PROFESSOR, WASHINGTON COLLEGE OF 
            LAW, AMERICAN UNIVERSITY, WASHINGTON, DC

    Ms. Smith. Good afternoon, Chairman Conyers and 
Representative Scott, and also to the Ranking minority Member, 
Mr. Goodlatte. Thank you for inviting me here today to speak 
and for the opportunity to speak with other Members of the 
Subcommittee on Crime, Terrorism, and Homeland Security.
    I think you can see from the introduction, the resume that 
you read that I lead a little bit of a double life. While I am 
professor at American University in the law school, I have been 
deeply involved and vested in issues related to sexual violence 
in custodial settings for well over 20 years, dating back to my 
work as lead counsel in Women Prisoners v. The District of 
Columbia. In 2003, I was appointed by then-House Minority 
Leader Pelosi to serve on the Prison Rape Elimination 
Commission. And I served in that capacity until August 2009, 
when the commission sunsetted.
    Congressman Scott, I know that you are familiar with the 
previous trajectory given that you, along with Representative 
Wolf, were the primary sponsors in the House. That marvelous 
and incredibly successful effort built on the work of Chairman 
Conyers, who introduced the Custodial Sexual Abuse Act of 1998 
in response to an earlier report by Human Rights Watch 
specifically addressing sexual abuse in custody. And I wanted 
to, sort of, acknowledge those efforts as well.
    One of the many things that PREA did was that it created 
the commission. And so what I am going to do today is I am 
going to talk some about the commission process, I am going to 
talk about our findings. Second, I want to mention briefly the 
Bureau of Justice Statistics. And third, I want to talk about 
what I have learned with working with 12 juvenile justice 
agencies and provide a number of recommendations for moving 
forward.
    First, thank you so much for, in your initial testimony, 
talking about the importance of DOJ moving forward quickly and 
expeditiously with consideration of the standards. The 
commission issued its standards on June 23rd of 2009. And, at 
this point, the Department of Justice is going through a very 
similar process to the process that we went through over the 
course of 5 years. We have actually talked to the Department 
and asked and sent, actually, correspondence to the Attorney 
General, asking that he expedite this process, particularly 
given the shocking statistics that recently we learned of from 
the BJS report.
    In its study, one of the things that the commission found 
is that juveniles in confinement are much more likely than 
incarcerated adults to be sexually abused and that they are 
particularly at risk when confined with adults.
    Additionally, one of the other findings that the commission 
found is that juvenile agencies are in increased need of 
training and education for staff and youth on addressing sexual 
violence in custody.
    The commission also found, like in other settings, internal 
reporting procedures were barriers to addressing sexual abuse 
in custody. And that may in some way explain the significant 
disconnect between the statistics that youth reported, the 
incidents that youth reported, and the incidents that 
correctional authorities reported. The findings were about 
three times different.
    One of the other things that we also found is that the 
developmental profile of youth means that youth must have 
access to family and legal representatives.
    I think, Mr. Scott, you have already talked tremendously 
about youth imprisoned in adult settings. I think that one of 
the other important findings that the commission made was that 
youth convicted as adults and housed in adult facilities were 
at the greatest risk of sexual violence in custody. Again, 
referring to Congressman Conyers's home State, I would really 
recommend to the Committee the important work that Deborah 
LaBelle has done in terms of looking at the situation of youth 
housed as adults.
    One of the things that I also want to talk about 
specifically with regard to our standards--I know that I only 
have a short period of time--is the piece related to the Prison 
Litigation Reform Act. One of the things that we have done in 
our standards is change the exhaustion requirement specifically 
for reporting these kinds of incidents but made a strong 
recommendation that PLRA be amended specifically to deal with 
these issues.
    Finally, what I want to talk about, or I want to end my 
time talking about, is what we found when we worked with 12 
jurisdictions. We learned that there is a different culture 
that exists in juvenile agencies and that juvenile agencies 
have different legal obligations, a lower obligation. They are 
not looking--they are not bound by the very strict requirements 
of cruel and unusual punishment, but really a lower standard of 
due process.
    The most important finding that we made is that there is a 
very different level of knowledge on this issue and that, for 
the most part, juvenile agencies have really not taken on this 
issue. At the same time, we found that juvenile agencies were 
very concerned with addressing this issue, which seems to us to 
present a real opportunity here.
    I see that I am running out of time, but what I want to do 
is I want to end with my recommendations and hopefully can talk 
a little bit more in the Q&A period. I have listed in my 
testimony about seven recommendations that I would hope that 
the Committee would look toward.
    First, to support the enactment of the standards 
recommended by the National Prison Rape Elimination Commission 
and to push the Attorney General to move very quickly with 
that.
    Second, to strengthen the ability of the Office of Juvenile 
Justice and Delinquency Prevention to address these issues as 
part of their compliance efforts by passing the juvenile 
justice reauthorization. Currently, the Senate bill offers the 
possibility of, for the first time, addressing dangerous 
conditions of confinement. And we believe that is appropriate 
and that it should also include provisions for independent 
monitoring.
    We also believe that in whatever comes out of the standards 
that the Attorney General passes, that there should be specific 
funding for juvenile justice agencies. In the initial funding 
for PREA, most of that funding went to prisons; very little 
went to juvenile justice agencies or community corrections 
agencies.
    We also believe that there needs to be additional data 
collection by BJS, which I understand is going to happen, 
specifically looking at juveniles in adult facilities.
    I will end my testimony there, and I look forward to 
hearing back with other questions.
    [The prepared statement of Ms. Smith follows:]
                 Prepared Statement of Brenda V. Smith
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Scott. Thank you.
    Mr. Isaac?

           TESTIMONY OF TROY ERIK ISAAC, PRESIDENT, 
          HANDS ON ADVOCACY GROUP, NORTH HOLLYWOOD, CA

    Mr. Isaac. Good afternoon to Mr. Chairman and to the 
Committee. My name is Troy Erik Isaac.
    When I was 12 years old, I entered into juvenile hall for 
nonviolent crimes: vandalism; you know, this one girl told me 
at a Shakey's Pizza Parlor that my sister wasn't an actress, so 
I threw salad on her and ended up going into juvenile hall.
    When I entered into juvenile hall, it was very scary. When 
I was on the streets of Burbank, California, I thought that I 
was tough. I thought that I was, like, the big person. But then 
when they opened those doors and I walked in there, I was hit 
full-blown with a dose of reality. Staff members ridiculed me. 
Staff members said, ``You know, you look like you are a sissy. 
You look like you are feminine.'' And although I was feminine, 
although I carried the characteristics of my mother, that was 
disrespectful.
    It would have been nice if he could have gave me a heads-up 
and he could have advised me that what you are getting yourself 
into is going to be really bad for you, and you can go here to 
a safer haven where you won't be subjected to abuse, assault, 
and rape.
    I entered into the juvenile system, and there was gangs 
there. One particular gang was the Pasadena Devil Lanes, and 
they are very known in Los Angeles.
    So the same things the staff members saw in me the inmates 
saw in me. So they forced me to oral copulate them in the 
shower area. Staff members were around; oftentimes they turned 
their back. I didn't feel encouraged to go to staff members. 
The same ridicule that the inmates were giving me the staff was 
giving me. So I had to figure out, what am I going to do? I 
started mutilating myself, cutting on my wrists, telling staff 
members that I was suicidal just to go to isolation. They would 
put me into isolation. I would be by myself, but it was very 
depressing.
    And that oftentimes happens to young people when they go 
into juvenile systems and they don't know what it is about. And 
that is what PREA is about. PREA would advise young people, 
``This is what is going on. If you feel uncomfortable, this is 
where you can go for help.''
    Nurses also are available to give crisis intervention and 
help young people. When you are young and when you are going in 
the prison system, no one wants to be considered a snitch. ``If 
you are a snitch, well, you know what? We are just going to 
beat you up. You are not supposed to tell on us.'' And that is 
what happens oftentimes in juvenile hall.
    So if you have PREA, if you have training--staff have to 
get hands-on training to deal with people and help people.
    I went to the California Youth Authority, where I was raped 
repeatedly. No one was there to help me. No one gave me 
anything. And I was raped over and over and over again. That 
continued into the adult correctional facilities, where a guy 
would say, ``Move into my cell. Go to committee, tell committee 
to move you into my cell.'' I would do such, and after that I 
am repeatedly raped, over and over again. And after I get out, 
the staff member says, ``I would have never put you in there if 
it was up to me.'' Well, if PREA is enacted, it would be up to 
him. He would be able to say, ``I am going to move you. I want 
to take care of you. I want to get you to a safer haven.'' And 
that is what PREA does.
    There with so much disrespect and hate in prisons coming 
from staff on inmates, inmates on staff. And I want to add to 
this that staff members, as well, get raped. At 20 years old, 
when I was at Vacaville State Prison, a medical technical 
assistant was knocked unconscious and raped. So rape is very 
here and very in your face. It happens to young people, it 
happens to old people, and it happens to staff.
    I am now the president of Hands On Advocacy Group. And I 
work with young people, I work with old people, I work with 
disability, homelessness in LA County. And I would love this 
Committee to urge Mr. Holder to implement PREA. And if we need 
to tweak it, we need to tweak it. But we need to keep 
everything adopted to move forward to help people.
    Thank you so much for listening to my story. Thank you.
    [The prepared statement of Mr. Isaac follows:]
                 Prepared Statement of Troy Erik Isaac
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    We are going to have votes in a few minutes, so we are 
going to have to break. But let's continue with the testimony. 
I think we can take at least the next one, maybe two.

    TESTIMONY OF BERNARD WARNER, CHIEF DEPUTY SECRETARY FOR 
JUVENILE JUSTICE, DEPARTMENT OF CORRECTIONS AND REHABILITATION, 
          DIVISION OF JUVENILE JUSTICE, SACRAMENTO, CA

    Mr. Warner. Thank you. Chairman Scott, Chairman Conyers, 
Ranking Minority Member Goodlatte, thank you for the 
opportunity to speak this afternoon about the important issue 
of keeping youth safe in juvenile facilities.
    Clearly, a report released 2 months ago by the Bureau of 
Justice Statistics on sexual victimization in juvenile 
facilities has cast a bright light on the vulnerability of 
youth in our care. While there were alarming rates noted in 
many facilities, the truth is any sexual assault is 
unacceptable.
    As chief deputy of California Division of Juvenile Justice, 
I am responsible for approximately 3,000 juvenile offenders 
between the ages of 12 and 24 on parole and housed in five 
large institutions. The State juvenile justice system in 
California is reserved for the highest-risk, highest-need youth 
who cannot be managed at a local level. Over 95 percent are in 
for serious violent crimes, and many have significant mental 
health and substance abuse issues. There is no greater 
responsibility I have than to keep youth and staff safe in our 
facilities.
    In California, the juvenile justice system is part of the 
adult correction system, who also operates the largest prison 
in the country. In both juvenile and adult corrections, we have 
taken the Prison Rape Elimination Act very seriously and were 
early implementers of policies and procedures to ensure every 
effort was made to eliminate victimization.
    And following Mr. Isaac, it is clear that I am presenting 
an environment which is much different and much more reformed 
than his experience in our system. Key strategies such as 
employee training, offender education, and appropriate 
classification of youth have, I believe, had a significant 
impact on reducing victimization. We have established pilot 
sites that work with Just Detention International for 
independent review of our compliance with PREA policies and 
practices.
    As a result of a consent decree signed 5 years ago, DJJ has 
implemented many reforms to improve safety of our youth: better 
staffing, smaller living units, enhanced training in trauma 
informed care, specialized programs for those with mental 
health issues, and engaging families. All have contributed to 
improvements and cultural change that has reduced 
victimization.
    Our facility in the Los Angeles area, which has housed the 
most violent gang-entrenched youth in any correctional 
environment, actually was listed as a facility with a low rate 
of victimization. Some of this is attributed to the reforms 
that I previously mentioned.
    In addition to representing California, I am also the 
current president of the professional association of State 
agency juvenile directors called the Council of Juvenile 
Correctional Administrators. Approximately 90 percent of the 
States in the country work with this association. Our mission 
is to educate and train State directors on evidence-based 
practices and promising programs, building tools for 
practitioners that are grounded in research and data that 
result in positive outcomes for youth, staff, and families.
    Last month, CJCA convened a panel of State directors, 
including those leading facilities highlighted as worst in the 
BJS report, to talk and strategize about ways to eliminate 
sexual violence in facilities. All the directors from the 
nearly 25 States present agreed that the most effective way to 
prevent sexual victimization is to ensure youths' safety--from 
all risks and dangers posed by facility life. Standards 
defining policies and procedures specific to sexual 
victimization alone will fall short of ending abuse in our 
facilities unless we change the culture.
    There needs to be a broader focus and support for creating 
an environment that is safe for youth, establishing a culture 
that appropriately defines boundaries between staff and youth 
under our care. How we make decisions as to where youth are 
housed, what programs and services we provide for them, and the 
expectations for staff to appropriately engage youth is 
critical in ending victimization in our facilities.
    As individual States and as a national association, we are 
committed to working with Federal partners to reduce and 
eliminate sexual violence in facilities. We participated in the 
Department of Justice listening sessions. We were able to 
inform them on feedback in terms of their proposed standards 
for juvenile facilities. We are looking at a standard-by-
standard comment and review that will strengthen those 
standards and, ultimately, effectively change the victimization 
of youth in facilities. Although there is some concern about 
the fiscal impact of implementing the standards, we also 
understand you cannot put a price on preventing victimization.
    As we look toward solutions to improve the safety of youth 
in our care, we look to the Office of Juvenile Justice and 
Delinquency Prevention for resources to support technical 
assistance. The development and implementation of best 
practices which support staff training, youth assessments, and 
programs designed to improve the climate in detention 
facilities is critical for long-term improvements in the 
juvenile justice system. While progress has been made, 
certainly the BJS study demonstrates unacceptable failure 
throughout the country.
    In addition, tools that measure change must also be 
available to all the jurisdictions so agencies can benchmark 
progress or identify barriers to safe facilities. CJCA is 
currently working with OJJDP to develop existing performance-
based standards that will allow for a continuous improvement 
process and more effectively show data that reflects concerns 
around victimization in our facility.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Warner follows:]
                  Prepared Statement of Bernard Warner
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Scott. Thank you very much.
    Sheriff Morgan?

           TESTIMONY OF GABRIEL A. MORGAN, SHERIFF, 
                        NEWPORT NEWS, VA

    Sheriff Morgan. Good afternoon, Members of Congress, 
especially Congressman Bobby Scott, who has been a lone voice 
in the wilderness as it relates to juvenile justice. I thank 
you for your efforts.
    I am here today to add my voice to the overwhelming body of 
work that states that incarcerating juveniles in adult 
facilities is dangerous and the practice is counterproductive 
in reducing crime.
    The number of youth held in adult jails on a daily basis 
exceeds 7,500, and the number of youth processed as an adult is 
approximately 200,000. In a 2007 study commissioned by the 
Campaign for Justice, entitled, ``To Punish a Few, Too Many 
Youth Caught in the Net of Adult Prosecution,'' that study 
found that two-thirds of approximately 200,000 were subject to 
pretrial detention in adult facilities. What that basically 
means is that we have so many youths that go into pretrial, and 
they are subject to pretty hard circumstances.
    The study also discovered that as many as one-half of the 
youth prosecuted in the adult system do not receive adult court 
conviction. So, although they are going into pretrial, they are 
not really being convicted. And they are suffering while being 
in adult facilities.
    Most youth who were not convicted as an adult spent 
approximately a month in an adult facility. And fewer than 25 
percent of the convictions in adult court resulted in a prison 
sentence. The majority of youth sentenced to probation or given 
a juvenile sanction were held in pretrial. When you look at 
that, you want to say, what did we really accomplish by putting 
them in an adult facility?
    In the late 1800's, Illinois instituted a juvenile court 
system that subsequently served as a model throughout the 
United States. The institution of a juvenile court system was 
designed to protect the welfare and rehabilitation of youthful 
offenders. This system created the specialized detention 
center, training schools, and the youth centers apart from 
adult offenders and facilities. Their aims were to provide a 
structured, rehabilitative environment in which the education, 
psychological, and vocational needs of the youthful offender 
could be addressed.
    Starting about 1987, juvenile crime started to escalate and 
continued on that trajectory until 1996. It should be noted 
that the juvenile crime rate has receded. However, a growing 
perception exists that the juvenile justice system is 
ineffective and we need to treat juveniles as adults.
    Nothing could be further from the truth. It is my 
observation, and most of the empirical data supports, minors 
are granted special civil rights to education, training, 
medical and emotional care that are unique to children. These 
rights are extremely difficult to enforce in an adult jail 
facility. An adult jail facility lacks the resources, 
specialized staffing, and the physical plant to deliver 
required services.
    Youthful offenders often present behavior problems when 
they are placed in general population. These same juveniles are 
more likely to be victims of brutal crimes that may include 
sexual assault. Again, our ability to effectively manage the 
juvenile safety is tenuous at best. Most of the time, we are 
forced to put them in protective custody or some sort of 
administrative segregation for their own protection. This 
amounts to additional punishment inasmuch as juveniles are in 
isolation cells for the majority of the day.
    These findings and many cited in my written submission begs 
the question, is this a violation of the Eighth Amendment of 
our Constitution? Further, as a civilized body, are we 
guaranteeing the provisions of the 14th Amendment due process 
and equal protection clause?
    In my submission, there is a story about overcrowding in my 
facility and the fact that mental health and the inability to 
deal with that population and what occurred. The tragedy that 
occurred basically prompted something to happen. What we heard 
from Mr. Isaac also says that tragedy occurs daily. Many 
juveniles have fallen through the cracks.
    In my State, at the age of 14 a juvenile can be subjected 
to adult jails. As a criminal justice practitioner, I must also 
caution of unintended consequences of good-meaning laws. Please 
do not saddle us with unfunded mandates that would impossible 
to accomplish without additional resources.
    Politicians talk about getting tough on crime. We really 
need to look at being focused more on prevention, 
rehabilitation, and reintegration. We cannot afford to continue 
in the manner that we have been going over the last 30 years, 
as it results to juvenile justice. We are wasting human 
capital, along with money that could provide greater return on 
our investment. Prevention is cheaper than correction.
    Thank you for allowing me this time.
    [The prepared statement of Sheriff Morgan follows:]
                Prepared Statement of Gabriel A. Morgan
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Scott. Thank you.
    As indicated, we have a series of five votes that will take 
at least a half an hour. We will get back as soon as we can. 
The Committee stands in recess.
    [Recess.]
    Mr. Scott. The Subcommittee will now come to order. We have 
been joined by the Ranking Member, Judge Gohmert from Texas, 
and the next witness to testify is Ms. Bauer.

    TESTIMONY OF GRACE BAUER, CAMPAIGN FOR YOUTH VIOLENCE, 
                         WASHINGTON, DC

    Ms. Bauer. Afternoon, Chairman Scott and Committee Members. 
I am a parent of a child who has been involved with both the 
juvenile and adult criminal justice system. I work with the 
Campaign for Youth Justice in D.C., organizing families whose 
sons and daughters have gone through these systems as well. I 
would like to thank you and everyone here today for focusing on 
an issue of critical importance that for decades has been 
ignored or treated with sneers and ignorance. It is only 
through the hard work of many in this room that this issue is 
discussed at all.
    We have seen the statistics. Within the past year over 13 
percent of youth in juvenile facilities reported sexual 
victimization by either staff or other youth. In addition, 
these abuses extends to youth who are prosecuted in the adult 
criminal justice system. Although the BJS study saddens me; it 
is not a surprise.
    As you listen today to what have become the nightmares of 
my life in the past 9 years, I ask that you hear the voices of 
the parents and children who are not here before you today.
    In 2001, my 13-year-old son, who weighed 90 pounds soaking 
wet, was sentenced to 5 years in the Department of Corrections' 
custody in Louisiana. I believed that the system would care for 
my son and get him back on the right track. Unfortunately, I 
could not have been more wrong. In 1998, The New York Times 
referred to the facility where my son was held as a place that 
many legal experts say is the worst in the Nation.
    He had to fight for food and do without when his size 
failed to hold off other children who were suffering from 
malnutrition and desperation.
    Many times we traveled 5\1/2\ hours only to be told our son 
was denied visitors that day or was in the infirmary. The times 
that we did see him we saw the evidence of the physical abuse 
he was enduring day after day, mostly at the hands of poorly 
trained and underpaid staff. We saw, on a regular basis, black 
eyes, burst eardrums, broken jaws, and broken arms.
    After his release, my son was diagnosed with post traumatic 
stress disorder and the emotional toll on him and our family 
can only be described as complete hell. I wish that I could say 
that what happened to my son was a rarity or that we have moved 
past that and these things are no longer happening to children. 
Let me be very loud and very clear when I say that over the 
past 9 years, not 1 week has gone by that I do not hear similar 
pleas and cries for help from other parents just like myself in 
very similar situations.
    Consider a 13-year-old boy who gets put into a cell with an 
older, bigger youth and is brutally raped while prison guards 
stand outside the cell and place bets on who is going to win 
the battle. Or a 14-year old girl who is physically and 
sexually assaulted by her father and runs away to live on the 
street, then is picked up and locked up and repeatedly raped by 
those in authority. And this time she has nowhere to run to. Or 
a mother who cannot approach her own son without alerting him 
that she is coming because he may have a panic attack or strike 
out in blind fear that he is being attacked again.
    What I hate most is that, after all of this time, I still 
don't have any answers for the families that I talk to. Many 
administrators and other State government authorities continue 
to doubt the repeated findings of sexual assaults in their 
facilities and cannot accept the overwhelming evidence that 
this exists.
    No one deserves to be violated, and the repeated stories 
show that what we can expect of State juvenile system 
authorities when it comes to protecting our children, even with 
a mandate to keep them safe. While I do not fault individuals 
who believe they are acting in a child's best interest, the 
blame I do feel is directed at those who have heard my story, 
my son's story and the stories of other families, and failed to 
act on those experiences.
    Therefore, in closing I echo The Washington Post editorial 
printed this weekend and call on Congress to reauthorize the 
Juvenile Justice and Delinquency Prevention Act, which would 
provide protections to youth in both juvenile and adult 
facilities.
    I also call on the Department of Justice to fully implement 
the recommendations of the National Prison Rape Elimination 
Commission.
    Every day that passes without these policies in place, 
countless numbers of children suffer. And if the statistics in 
the BJS report are not enough, I ask you to consider that one 
of these children who were beaten, raped, and assaulted are the 
child's picture that you hold in your wallet.
    Try to understand the fear that you would have for your 
loved ones in similar situations and imagine, too, the 
helplessness of having no way to stop or even address that kind 
of sickening violence.
    If these were your children, we would not continue to hold 
hearings, create commissions, or issue more reports. Instead, 
we would do what is right and take action immediately to 
protect our future and the lives of our children.
    Thank you so much for your time.
    Mr. Scott. Thank you Mrs. Bauer.
    [The prepared statement of Ms. Bauer follows:]
                   Prepared Statement of Grace Bauer
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. I would like to move to questions from our panel 
under the 5-minute rule. I will start with Mr. Isaac. You can 
tell me about the Hands-on Advocacy organization.
    Mr. Isaac. Yes, Hands-on Advocacy Group was started about a 
year and a half ago. I started when I got out of prison. I was 
an independent advocate. So I wanted to give back to the very 
community that I took away from. So I went out just looking for 
people who needed help.
    It got bigger. So Priscilla, she has a not-for-profit and 
she is a community education-based not-for-profit and she came 
to me and said, You know, you need to have more people to help 
you, because you are out there just doing it by yourself. So I 
deal with police. I deal with disabilities. I deal with people 
who are homeless. I deal with real estate brokers to have them 
open up their houses so they can get people off the streets, 
and we get them on general relief and get them on SSI, and I 
have attorneys that help me with that. So she said, Why don't 
you partner with me?
    So what we did was doing business as a DBA, and we did a 
partnership agreement and we got everything legal and 
notarized. And I am with her, but I am in charge of Hands-on 
Advocacy Group. And she sits with me as my chief financial 
officer. And we are doing grants this year. And we plan on 
hiring staff this year because we are going to be covering so 
many areas in the city of Los Angeles.
    Mr. Scott. Thank you. Ms. Bauer, you made complaints to 
various officials. What happened after you made complaints? 
What was the response?
    Ms. Bauer. I tried to report it to the juvenile facilities 
where my son was, but I kept getting shifted from one person to 
another over a 3-month period. So I eventually wrote a letter 
to Secretary Stalder, the Department of Corrections head in 
Louisiana at that point, and I got a form letter back. And that 
was all that was ever done to address the assault of my son.
    Mr. Scott. Mrs. Smith, what is the status of the PREA 
recommendations?
    Ms. Smith. The current status is that the Department of 
Justice is going through a process where they have a working 
group. The working group has had listening sessions really 
going over much of the same territory that we have already trod 
for 5 years. My understanding is that in the next month or so, 
they will be putting our standards out for formal comment 
again, and that they actually are not anticipating that a final 
rule will issue from the Department of Justice before 2011.
    Mr. Scott. Are the recommendations published so that 
corrections officials know what the recommendations are?
    Ms. Smith. Absolutely. We did an excellent report which is 
available on the Web site and we did a great release. And so 
what those proposed standards that also are in adult, juvenile, 
community corrections, immigration detention facilities, are 
available. And as you have heard a number of these 
jurisdictions are early adopters.
    Mr. Scott. Sheriff Morgan, have they made the 
recommendations to local sheriffs?
    Sheriff Morgan. Yes, they have. And Congressman, I believe 
that at this point, the National Sheriffs Association came back 
with some comments or recommendations. And I think those were 
already taken under consideration. So I will tell you that my 
facility was also surveyed, and I think they did a wonderful 
job.
    Mr. Scott. Do you see any problem implementing any of the 
recommendations?
    Sheriff Morgan. Personally? No.
    Mr. Scott. Are there costs associated with those 
recommendations?
    Sheriff Morgan. There could be some costs associated with 
it and we are waiting for some interpretation to really 
understand where the funding would be, if it is interpreted one 
way versus the other. And I think we are waiting on an answer 
from them on that now.
    Mr. Scott. I have other questions. We will have a second 
round. Judge Gohmert.
    Mr. Gohmert. Thank you, Chairman. And I do apologize for 
going late. It seems we scheduled so many things, but I 
reviewed the material last night and I appreciate so much your 
participation.
    I was curious, Professor Smith, in juvenile facilities 
where cameras and electronic monitoring are available, are 
there different rates of reporting sexual abuse?
    Ms. Smith. I think one of the things that is excellent 
about your question is you talk about one of the actual 
standards that we recommended, and one of those standards is 
specifically that agencies look at how cameras or video 
monitoring might help.
    I actually don't have the information on whether it is 
different or not, but my--what I have heard is that they are a 
great help. At the same time, one of our other commissioners 
said that a camera never stopped anybody from going over the 
fence. And so it is very important that that camera also be 
connected with staff training and also accountability as well.
    And so we think that they are an important tool, but we 
also think that they have to be integrated with the change in 
practices and culture by staff.
    Mr. Gohmert. Thank you, Professor.
    Sheriff, that leads to another question to you. You know, 
one of the things that we read is that there is a high 
percentage of reported sexual incidents involving female 
correctional officers and male inmates. How difficult is it to 
ensure--or can you ensure that there are just male guards over 
male inmates?
    Sheriff Morgan. How difficult it is? I will tell you that 
it is not difficult by practice, but it may be discriminatory 
by law. And because of that, females are afforded the same 
rights as male correctional individuals, and they work all the 
jobs and they are interchangeable.
    So there is a law issue that we would have to overcome. And 
then there is also the question about ratio of staff. Right now 
females are an ever-increasing number in the correctional field 
and, as a result, you would have to designate positions male-
only to be able to achieve your goal.
    Mr. Gohmert. Do you think it is a goal worth achieving?
    Sheriff Morgan. No. I believe that a correctional officer 
is a correctional officer, whether it be male or female.
    Mr. Gohmert. But you are familiar with the high percentage 
of female sexual interaction with male inmates, right?
    Sheriff Morgan. I am. But again it goes back to training. 
It goes back to supervision. It goes back to leadership from 
the top and involvement. We have good and bad in every 
profession. And to penalize females per se from the ability to 
move up and to move throughout the ranks----
    Mr. Gohmert. Well, you couldn't penalize them from being 
able to move up. I mean, that would be grossly unfair.
    Sheriff Morgan. Most places we have more men than women 
incarcerated, so they would be limited.
    Mr. Gohmert. And you don't want to encourage bringing in 
more female inmates. I am being facetious, of course.
    Let me ask, Mr. Warner, as a result of your studies, what 
would you hold up or recommend as the most model facility you 
have encountered?
    Mr. Warner. Well, I don't know if I could name a specific 
facility, but I could describe the culture within that 
facility. And in your State of Texas, Cherie Townsend, who has 
taken over the Texas Youth Commission, is doing a great job in 
reforming that system. It is, as the sheriff said, about 
training staff and about leadership in facilities and with the 
zero tolerance against victimization. It is training. It is 
identifying vulnerable youth in our systems so that we can 
provide appropriate supervision for them and minimize 
victimization. I think that it is really around accountability 
of staff and making sure that they are doing their job.
    So I think it is really a series of tools. It is around the 
culture of our facilities. And in se facilities with low rates 
of victimization, there is strong leadership that says--that 
really dictates boundaries between staff and youth in our care. 
And those facilities with high rates of victimization, those 
boundaries have dissipated, unfortunately, and youth have been 
exploited.
    Mr. Gohmert. Do you see cameras as being important in that?
    Mr. Warner. I think cameras help. What I would not want is 
for staff to rely too much on cameras and believe that they 
don't have to be out. What we know is that communication is 
critical; That you need to engage with youth and you need to 
develop trust with youth in our care. So additional cameras is 
helpful, but not as avoidance of paying attention to staff 
behavior in facilities.
    Ms. Smith. Mr. Gohmert?
    Mr. Gohmert. Yes, ma'am.
    Ms. Smith. I would actually like to pipe in about 
something. You actually asked a question related to cross-
gender supervision. And I recognize that that has been a 
standard that has been quite controversial that the commission 
has recommended. And I want to say that the commission did not 
come to recommend that standard lightly. But since we are 
talking about juvenile justice, I think that one of the things 
that we have to be very clear is that the legal basis for same-
sex supervision in juvenile settings is quite different than 
that in adult settings. In fact, case law is exceedingly clear 
that you can have gender-specific supervision in juvenile 
facilities because you are concerned about the rehabilitation 
of youth.
    Mr. Gohmert. Because that really should be the number one 
consideration.
    Ms. Smith. Exactly. And all of the decisions that have 
specifically talked about that have been very specific to say 
that you could have same-sex supervision for both males and 
females. And so I want to make sure that that is in the record. 
And I would be happy to provide authority for that as well.
    Mr. Gohmert. I very much appreciate you coming back in. 
Thank you.
    Thank you, Mr. Chairman, I realize my time has expired. 
Thank you.
    Mr. Scott. The gentlewoman from Texas.
    Ms. Jackson Lee. I thank the Chairman. I can't imagine a 
more important hearing. This is devastating, but it is 
important. I don't know--frustrated by talking about cameras to 
try to control human behavior in attacking the most vulnerable. 
I just wish that there was some moral compass that people would 
know: Let me stop.
    Professor Smith, tell me, is this an epidemic? What has 
your research found as relates to these incidences? And let 
me--being Open Records Act, I come from the State of Texas and 
I know that they had to be part of your research. We had a very 
unfortunate period of time of abuse in our juvenile justice 
system. And I should take away the word ``justice.'' So tell me 
how expensive, how far-reaching, how much of an epidemic is 
this? How much of an outcry should be made on this
    Ms. Smith. I think that the fact that you are holding a 
hearing and the fact that it is so open speaks to how serious 
this problem is. It is a long-standing problem. It was a 
problem--I mean it has been a problem ever since we have had 
prisons. And I think one of the things that was referenced 
earlier is that this body's attempt to deal with this problem 
has been long-standing and actually goes back at least 10 years 
when Congressman Conyers introduced the Custodial Sexual Abuse 
Act.
    One of the things that I also wanted to take the 
opportunity to say--and actually I talked to a number of people 
in the audience--while these numbers that the Bureau of Justice 
statistics has come forth with are shocking, the fact is, what 
do we know about sexual abuse in the community? One, we know 
that it is significantly underreported. The people who the BJS 
have are the people who actually stepped up and said something. 
What you can be sure of is that those numbers are actually 
higher. And so to the extent that you talk about that it is an 
epidemic, I think that what it is, it is a feature of our 
correctional----
    Ms. Jackson Lee. I am sorry that I was delayed and missed 
your testimony, but would you recommend total elimination of 
juveniles in our adult system, in the Federal system?
    Ms. Smith. Absolutely. Absolutely. In fact, one of the 
recommendations in the commission's report is that juveniles 
who are under 18 should not be housed as adults. And one of the 
things that I also have to really sort of put a plug in because 
I am a resident of the District of Columbia, one of the things 
that you know is that the standards will be applicable to the 
Federal Bureau of Prisons, and so obviously this will have a 
huge impact on Federal know prisoners but it will also have a 
huge impact on District of Columbia prisoners who, unlike any 
other community in this country, are housed in Bureau of Prison 
facilities all around the country.
    Ms. Jackson Lee. And you have a lot of juveniles because 
this is a city.
    Ms. Smith. Absolutely. And in fact there are District of 
Columbia juveniles incarcerated in facilities as far away as 
North Dakota.
    Ms. Jackson Lee. Let me ask Troy, let me thank you for your 
courage. And I want to go to Grace as well and express my 
concern for these children. And you are how old, Troy?
    Mr. Isaac. I am 36 now.
    Ms. Jackson Lee. This happened to you when?
    Mr. Isaac. This happened from the ages of 12 to 18 in 
youth, and then from the ages probably about 20 to maybe 30 or 
so in adult correctional facilities. So it has been a long 
period of time.
    Ms. Jackson Lee. We should be grateful for your 
willingness, your sanity, and sanctity. And I know that you are 
working on this issue. Give us your bottom line. If we had to 
run out right now and do something, what would you tell us to 
do? What would be the first thing we needed to rush to do?
    Mr. Isaac. As it relates to youth, young people, there has 
to be a hands-on approach when they walk through the door. They 
have to be advised of their rights. They have to understand 
what they are getting themselves into, and they have to be 
given a vulnerable assessment format where basically you ask 
them questions, and their answers to those questions, you are 
able to better place them in the juvenile system, versus 
sending them out to a general population yard where they could 
be assaulted, beaten and raped like I was. So if you give 
someone a choice, then they will be better off.
    Ms. Jackson Lee. Did you ever go to your custodian, is 
there anybody you thought you could go to?
    Mr. Isaac. At the time I was growing up, absolutely not. 
Because the same staff members that I needed to trust in 
disrespected me, ridiculed me by the way that I looked, by the 
way that I talked. There were times when Black fellow inmates 
would tell me, You sound like you're White. Whatever that 
means. I am just talking like I talk.
    Ms. Jackson Lee. Where were you incarcerated?
    Mr. Isaac. In California, I was in Central Juvenile Hall. I 
was in Los Padrinos Juvenile Hall, I was in the California 
Youth Authority Francine Nellis School, O.H. Close in Ventura. 
And the adults, I have been in every major--like Pelican Bay 
State Prison, Corcoran State Prison.
    Ms. Jackson Lee. It is an epidemic everywhere that you 
went?
    Mr. Isaac. Everywhere that I went, except the California 
Correctional Institution. If I had to pick a prison, that is 
one prison in California that I would pick because they have 
exceptional staff.
    Ms. Jackson Lee. We are glad that you don't have to pick it 
again.
    Could I get Grace, what would be the first thing you would 
want this Committee to do, the first thing in terms of the 
crisis that your son experienced?
    Ms. Bauer. Pass the Juvenile Justice Delinquency and 
Prevention Act. Get those protections in place as soon as you 
possibly can and pass the PREA recommendations and get them 
into place. We have to move somewhere. We just cannot continue 
to sit on the fence.
    Ms. Jackson Lee. Well, let me thank all of you, all the 
witnesses that I did not get a chance to pose questions to you, 
read some of your testimony. Let me thank the Chairman and the 
Subcommittee Ranking Member for something that should set all 
of our hair on fire and should cause us to move with swift and 
immediate speed. Thank you. I yield back.
    Mr. Scott. Thank you.
    Professor Smith, there are several--in the BJS survey there 
were several facilities that scored very poorly on this issue; 
unfortunately, two of them in my home State of Virginia. What 
is being done to--what has been their response and what is 
being done?
    Ms. Smith. Well, one of the features of the act--I want to 
make sure that I get it right--is an institutional review 
panel. And my information is that if they are in that high 
number, then they actually have had to appear before the 
institutional review panel. And I believe that sort of the 
transcripts of that appearance should be available. So I think 
on that level, that is what is happening with them.
    I think on the other level, and certainly something that 
the act tried to do and that the standards tried to do is to 
sort of shine the light, to put some sunshine on it, and then 
have some accountability in the same way that you are trying to 
bring some accountability here, to have that accountability 
locally.
    In terms of litigation, which it seems to me where I wear 
my other hat as a litigator, I think I might be writing up a 
complaint at this time if I were in that position. But I think 
it is very difficult for people to take action in that way 
because of significant hurdles that the Prison Litigation 
Reform Act represents.
    Mr. Scott. You mentioned one hurdle and that is exhaustion, 
which is totally inappropriate for a juvenile to have to 
exhaust all administrative remedies. There are other hurdles 
like physical injury. What impact does that provision have?
    Ms. Smith. I think one of the things that is very 
interesting is the information in the BJS report where they 
talk specifically about whether these assaults resulted in 
physical injury. Given that and given what the PLRA said, even 
those these are individuals who experienced sexual abuse, if 
there was no obvious physical injury they would not have their 
day in court. I think that that is really, really problematic.
    Mr. Scott. Is there any justification for juveniles to be 
under the Prison Litigation Reform Act to begin with?
    Ms. Smith. The reality is there is not any justification 
for anybody to be under the Prison Litigation Reform Act. But 
since you have asked the question about juveniles, given what 
we know about juveniles cognitively, it is very difficult for 
them to meet those time frames. It is very difficult for adults 
to meet it and certainly juveniles wouldn't be able to.
    Mr. Scott. Several people have mentioned the Juvenile 
Justice Delinquency Prevention Act. Mr. Isaac, what should we 
do in that act to improve the situation?
    Mr. Isaac. Well, of course, Mr. Chairman, in relationship 
to victimization, we know that age certainly IS the indicator 
of vulnerability. California is one of the few jurisdictions in 
the country that have youth up to the age of 24, young adults 
in our juvenile system. But we do separate those youth under 18 
from those youth over 18. I think the provisions in the 
Juvenile Justice Delinquency Prevention Act certainly enhance 
our ability to protect the vulnerabilities of youth in our 
care.
    Mr. Scott. Are there any changes we need to make in the act 
as we reauthorize it?
    Mr. Isaac. Well, I think----
    Mr. Scott. I mean it has protections now. If we 
reauthorize, it gives us opportunity to improve it. Are there 
any improvements that you would want to suggest?
    Mr. Isaac. I think that there is a general interest in 
moving forward with reauthorization and working with what is 
currently provided for in the act. I look at it more broadly in 
terms of the State's interest and continuing to work with OJJDP 
and developing promising programs, and, really as I talked 
about, changing the culture in our facilities. So enhancing 
beyond the protections, just the opportunity to improve 
practices would be tremendous asset.
    Mr. Scott. And Professor Smith, just to change the subject 
a little bit, and we can come back to this. Is there any 
concern about the allegations being lost in ``he said, she 
said,'' and whether or not the allegations are actually 
accurate?
    Ms. Smith. Absolutely. Certainly one of the other standards 
that we have is a standard related to investigations. Again, a 
very rich source of information is the BJS report where 
actually you have an incredible large number of unsubstantiated 
and unfounded claims, which means that investigative procedures 
are just not really that strong. We believe very strongly that 
there should be training and that there should be specific 
evidence protocols, so on and so forth, to enhance the ability 
to get to the truth and to also substantiate those things.
    Mr. Scott. And you wanted to say something about JJDPA?
    Ms. Smith. I did. Not being a shy person at all, I actually 
had some suggestions about what you might do to improve the 
act. Certainly I talked a bit about it in my testimony.
    In the Senate bill, there is a provision that for the first 
time allows the agency to look at dangerous practices. And 
certainly before, you did not look at conditions of 
confinement. And I think that that is really useful for the 
Office of Juvenile Justice and Delinquency Prevention to do. 
And so sexual misconduct and sexual abuse would be a part of 
that.
    I think another piece that is very important is to have 
independent monitoring. Currently, most of the monitoring that 
Juvenile Justice--that OJJDP does is through a compliance 
monitor system. One of the recommendations, strong 
recommendations of the act, is independent monitoring, 
independent audits. And I think that that would be very 
instrumental and a very important piece for the 
reauthorization.
    And I think the third thing would be to give OJJDP some 
money. Because the fact is that one of the things that we saw 
in just the response to the Prison Rape Elimination Act, that 
they were not one of the agencies that received funding under 
the act. That money went to the Bureau of Justice Assistance, 
and, as a result, juvenile justice agencies did not get the 
same kinds of support and resources to even begin thinking 
about implementing the standards. And I think that they need 
their own money and the ability to send that money out to do 
technical assistance and training because they are familiar 
with those communities and where that money would be best 
spent.
    Mr. Scott. Thank you. The gentleman from Texas.
    Mr. Gohmert. Just briefly. You mentioned some great 
recommendations, Professor Smith. Are you familiar with the 
overall recommendations of the commission--well, I am sure you 
are. You helped on that. Are you familiar with any estimates on 
the cost, overall, if all of the recommendations were 
implemented?
    Ms. Smith. You know, that is very interesting, the cost 
issue. Currently, there is a study that is being funded, and I 
believe that Booz Allen Hamilton, is doing that study, and I 
was very interested to hear Ms. Bauer talk about what happened 
and that she wrote a letter to Richard Stalder and did not get 
a response. He is one of the people who is consulting on that 
study.
    Mr. Gohmert. We better run that down then.
    Ms. Smith. Anyway, I guess one of the things that I would 
say is that the commission takes the position that in looking 
at costs, that different jurisdictions are going to be at 
different places. And so places like Virginia, or Texas, or 
California, who have made a significant investment in running 
safe and secure facilities aren't going to have the same costs 
as someone else who has not really been doing anything, has 
been waiting for the standards to come down, and saying then I 
will comply.
    I think the commission's position is that the cost of 
running constitutional and safe facilities shouldn't be lumped 
onto the cost of complying with the standards. There are some 
things that you should be doing in any event to run a safe and 
secure environment.
    We also believe that the costs of not running 
constitutional facilities should be a part of that study. So 
the amount of money that people have to pay to settle 
litigation--for example Michigan, who had to pay $100 million 
to settle staff sexual misconduct litigation. So that is what I 
would say about the cost, that there is a certain complexity to 
it.
    Mr. Gohmert. But cost assessments do help. Obviously you 
can't put a value on the kind of hell that Mr. Isaac went 
through. You cannot put a price on that.
    Ms. Smith. Exactly.
    Mr. Gohmert. But at the same time, this Committee is not an 
Appropriations Committee. And the appropriators always look at 
what do you get the greatest return for, on which investment. 
So it is one of the things that we do have to inquire about.
    Ms. Bauer, I have not asked you a question earlier, and 
understanding what Professor Smith is talking about, you have 
had such tremendous experience, unfortunately unpleasant, but 
we hear from jails and prisons saying the cost of just putting 
one inmate per cell is just so high. From what you have seen 
from all of your experience, if there were one thing that could 
really make more difference than anything else, do you have any 
recommendation like that?
    Ms. Bauer. I do indeed, and I thank you for asking me that 
question. It is clear in my written testimony, but not so in my 
oral testimony, that my son was in jail for stealing a $170 
stereo out of a pickup truck with two other boys and got 5 
years in a Louisiana State training institute at that time. 
When we talk about cost, the damage that has been done is 
immeasurable to his life and to lots of others, as you have 
said. But had my son gotten grief counseling, it would have 
cost approximately $28 per session. I did not know that at the 
time. He lost his grandmother and if he had gotten grief 
counseling at $28 per session for a 6-month period, compared to 
$120,000 a year that it cost to house him in the Tallulah 
facility, what do you think? And now the State has housed him 
for 5 years in the State of Louisiana in an adult facility. So 
the cost to taxpayers for my son could have been much cheaper 
in the beginning than it has been in the end. When we lock up 
nonviolent offenders in these situations we are cutting off our 
nose to spite our faces in terms of cost, and it is time that 
we had that culture shift, and it is time that people woke up 
and realized that there is a major problem in this country with 
over-incarcerating individuals because they are poor or 
mentally ill.
    Mr. Gohmert. Thank you. Thank you all.
    Mr. Scott. I would like to thank our witnesses for your 
testimony today. We will follow up with the Department of 
Justice on the status of the recommendations.
    And other Members may have additional written questions 
which we will forward to you and ask that you answer promptly 
as you can so the answers may be made a part the record. The 
hearing record will be remain open for 1 week for the 
submission of additional materials. And without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 6:25 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
